This review was not conducted in accordance with the Government Auditing Standards
issued by the Comptroller General of the United States.

                                   Results of Review

We determined that Recommendations 1, 2, 3, and 9 were implemented, as reported.

Recommendation 1: Establish a Departmental official with oversight responsibilities
for the concessions program.

In its March 18, 2005 response to the draft report, the Department proposed an
alternative action for Recommendation 1. The Department proposed to establish a
working group to enhance Departmental coordination. We agreed that the working
group would enhance Departmental coordination, but we commented that the
Department did not provide for a responsible official with the authority to ensure
coordination among the bureaus and implementation of any recommendations for
program improvements.

The Department provided the title of the official responsible for implementation of this
recommendation in its November 23, 2005 response to the final report. The Director,
PAM, sponsors the inter-bureau Concessions Management Working Group (CMWG).
The Director and representatives from the Department and the bureaus signed the
CMWG charter, substantiating the establishment of the Departmental working group.
In accordance with the recommendation, the working group was established to enhance
coordination between bureaus and make recommendations to improve concessions
programs within the bureaus. We concluded that the Department has implemented
Recommendation 1, as reported.

Recommendation 2: Establish a Departmental working group to standardize policies
and improve business practices.

The CMWG’s purpose, as described in the charter, is consistent with the
recommendation that the group work toward standardizing policies and improving
business practices. Based on a review of the meeting minutes provided, we concluded
that representatives from each of the bureaus with concession management duties
(Bureau of Land Management, Bureau of Reclamation, Fish and Wildlife Service, and
National Park Service), along with representatives from the Solicitor's Office and PAM,
have participated in working group meetings and coordinated to standardize policies
and improve business practices. For example, the group is developing an over-arching
concessions management policy to be included in the Departmental manual. The
concessions management policy will incorporate guidance from the bureaus’ policies
and instructions. We concluded that the Department has implemented
Recommendation 2, as reported.




                                           2
Recommendation 3: Take steps to improve overall program performance. For
example:
   ¾ Create a formal structure for providing technical assistance and sharing
      knowledge.
   ¾ Establish a Departmental level team for processing and monitoring high-dollar
      agreements.

In establishing the CMWG, the Department has taken steps toward improving overall
program performance. In accordance with the recommendation, the CMWG functions
as a formal structure for providing technical assistance and sharing knowledge. We
found that the CMWG has worked to identify best practices that are applicable to all of
the bureaus with concessions management responsibilities. For example, a National
Park Service (NPS) representative performed a demonstration of NPS' Concession
Management Database System for CMWG participants, and the group discussed
developing a process for other bureaus to use this database for their concessions
programs.

A PAM official told us that the CMWG does not plan to process and monitor high
dollar agreements, as suggested by the recommendation. However, the CMWG does
plan to review certain high-dollar agreements in order to identify best practices that can
be applied to all of the bureaus with concessions management responsibilities.
Although the Department has not met the original intent of our recommendation to
process and monitor high-dollar agreements, the review process proposed by the
Department should identify best practices for bureaus to use to improve the overall
performance of the concessions program.

We concluded that by establishing the CMWG the Department has taken steps to
improve overall program performance, and we consider Recommendation 3 to be
implemented, as reported.

Recommendation 9: Consider adding a key performance measure tracking the
reduction of the backlog of concession agreements operating under extensions as part
of the strategy to achieve this goal.

In its response to the draft report, the Department assigned the responsibility for
implementing Recommendation 9 to the bureaus. In its response to the final report, the
Department stated that this recommendation was resolved and implemented because
NPS, the only bureau with a backlog, had incorporated a performance measure in key
managers' job performance plans to track the reduction of the backlog.

The Department provided performance plans for the NPS Deputy Director of
Operations and the NPS Concessions Program Manager. Both performance plans
include performance elements that require the reduction of NPS' backlog of concessions
agreements. For the Deputy Director, the backlog reduction is a mandatory




                                            3
requirement. For the Concession Manager, the reduction of the backlog is included as a
critical element that must be achieved in order to be successful.

We concluded that the Department has implemented Recommendation 9, as reported.

Conclusion

       We consider Recommendations 1, 2, 3, and 9 to be implemented, as reported.
No additional action is required. We informed the Department of the results of this
review on June 13, 2006.


Responding to the Report

       Because we consider Recommendations 1, 2, 3, and 9 to be implemented, a
response is not required.

       If you have any questions about this report, please call me at (303) 236-9243.




                                           4
